HHS/OIG, Audit - "Review of Medicare Payments for Services Provided
to Incarcerated Beneficiaries in the State of Texas," (A-06-02-00008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries
in the State of Texas," (A-06-02-00008)
October 31, 2002
Complete
Text of Report is available in PDF format (782 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare payments for
services provided to incarcerated beneficiaries in Texas during  the period
January 1, 1997 through December 31, 1999 were in compliance with Federal regulations
and Centers for Medicare & Medicaid Services (CMS)  guidelines. We
reviewed a randomly selected statistical sample of 100 claims.  Payment
for 90 of the 100 claims were allowable.  However, we found that Medicare
payments for five claims were improper because, at the time the service was
provided, the five beneficiaries came under the jurisdiction of the Texas Department
of Criminal Justice or local jurisdictions. The State of Texas or the local
government was responsible for their health needs. We were unable to determine
the exact whereabouts of five beneficiaries at the time the services were rendered
for the remaining five claims.  Therefore, we could not determine Medicare
allowability.  CMS plans to establish an edit in its Common Working File
(CWF) that will deny claims for incarcerated beneficiaries.  We believe
the planned edit will prevent many improper payments for claims of incarcerated
beneficiaries. However, we believe CMS and its contractors will need to educate
suppliers and providers on the proper use of the modifier or condition code.
Also, claims with the modifier or condition code must be monitored to assure
the conditions under regulations at 42 CFR 411.4 (b) required for payment are,
indeed, being met. In their written response to our draft report, CMS officials
agreed with the findings and recommendations and stated they will work with
the contractors in Region VI to ensure that our recommendations are carried
out properly.